20-52FILED
JUN 0 h 2020

IN THE

SUPREME COURT OF THE UNITED STATES

KENNETH LEE MANHARD,
Petitioner

LEGAL MAIL PROVIDED TO
NEW RIVER C.I.

JUL 1 7 2020
V.

UNITED STATES OF AMERICA,
Respondent

FOR MAILING
INMATES INITIALS___

ON PETITION FOR A WRIT OF CERTIORARI TO
HIGHEST COURT OF FLORIDA

PETITION FOR WRIT OF CERTIORARI

Kenneth Lee Manhard
New River Correctional Institution
P. O. Box 900
Raiford, FI 32083

1

In Mancuso and Dorsett and McGowan the highest Court granted review and held when there
were multiple impacts, the driver must know of specific impact that actually resulted in the injury.
Kenneth Manhard was involved in a daisy-chain collisions. A young man died no one knew which
vehicle caused his injury. Kenneth Lee Manhard appeals to highest state for review.

The court determined it should decline to accept jurisdiction.
(1) Was he denied equal protection of the law ?

2

STATEMENT OF THE CASE
Kenneth Lee Manhard was charged by a second amended Information with Count I leaving the
scene of a multiple crash involving death Count II D.U.I manslaughter and Count III driving while
license canceled suspended or revoked causing serious bodily injury or death . He proceeded to trial
October 25, 2017, the jury returned verdicts of guilty on all counts. On November 11, 2017, Appellant
was sentenced to Count I 25 years in prison with 4 years minimum mandatory followed by 5 years
probation Count II four years in prison followed by 11 years probation to run concurrent in Count I and
Count II time served, a motion to correct sentencing error was filed on May 18, 2018 part was granted
part was denied. A second motion to correct sentencing error victim injury points was filed on August
23,2018 -that motion was denied written order on August 22, 2018. The Appeal was filed on September
28, 2018. It was answered by the State on February 12, 2019 we did a Reply Brief March 4th, 2019 on
October 1st, 2019 on Case No.: 1D17-5010 we had a 9 page opinion they used case Miranda v. Arizona,
388 U.S. 4367 1966 But Affirmed! On October 16, 2019, Motion for Rehearing or Certification of
conflict page 9 motion. On December 30, 2019 we filed a Jurisdictional Brief on February 7, 2020
State Answer Brief also the Supreme Court of Florida acknowledgment of new case December 23,
2019 case No.: SC-19-2133 Answer October 16, 2020 not to invoke jurisdiction.

3

LIST OF PARTIES
[

]

All parties appear in caption of he case on cover page.

[ X ] All parties do not appear in caption of the case on cover page a list to the proceeding in the
court whose judgment is the subject f this petition is as follows:
(1) Florida Supreme Court

Judge CANADY, CJ, and POLSTON and LABARDGE LAWSON and

MUNIZ JJ Concur
(2) First District Court of Florida= Opinion Judge B. L THOMAS and J. Also LEWIS and ROBERT'S
JJ Concur
(3) First District Public Defenders Danielle Jorden
(4) State Attorney General Sharon S. Traxler
(5) Judge Michael Overstreet Bay County, Florida
(6) Public Defenders Matthew Merdith and F.R. Mann and Kimberly D. Jewell

4

TABLE OF CONTENTS
PAGE(S)
Opinions Below.

5

Jurisdiction.

9

Constitutional And Statutory Provisions Involved

8

Statement of the Case,

3

Reasons for Granting the Writ.

14

Conclusion.

14
INDEX TO APPENDICES

APPENDIX

DESCRIPTION

A

1 page opinion Florida High Court

B

9 page opinion DCA

C

Warrant 4-16-242

D

Warrant 4-16-254

E

Acknowledgment of New Case

F

Walter Crash Report

5

IN THE SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner Respectfully prays that a Writ of Certiorari
Issue to Review the Judgment below.
OPINIONS BELOW
[ ]

For Case from Federal Courts: 0

[ X ] For Case from State Court:

1

The opinion of the Highest State Court to Review
The merits appears at Appendix Yes to the petition and is
[ X ] Reported at A#
The opinion of the First District Court of Appeals
Appears at Appendix B# to the petition and is
[ X ] Reported at Fla. Law Weekly

6

TABLE OF AUTHORITIES CITED
CASE

PAGEtSJ

Missippi Choctaw v. Holifield, 104 L. Ed. 2d 490 U.S. 30 (footnotes) (1931-1934)

14

Wxyzlnd. v. Hand, 658 F. 2d 420 7 Media L. Rep (BNA) 1817 (6th Cir. 1981)

14

Cohens v. Virginia, 19 U.S. (6 Wheat.) 264, 404 5 L. Ed. 257 (1821)

14

Miranda v. Arizona, 384 U.S. 436-437 (1966)

3

State v. Dorssett, 158 So. 3d 557 (Fla. 2015)

2

State v. Mancuso, 652 So. 2d 370-371-72-76 (1995)

.2

McGowan v. State, 139 So. 3d 934 (Fla. 4th DCA2014)

.2

STATUTES AND RULES
316.027 Fla. Statute National Uniform Code.

14

Article III §2 United States Constitution,

9

28 U.S.C. 1257(A) to accept Jurisdiction.

9

Rule 29.5B...............................................

Index I

7

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
(1) U.S. Constitution 4th Amendment

Unreasonable Searches

(2) U.S. Constitution 5th Amendment

Due Process of Law

(3) U.S. Constitution 6th Amendment

Right of the Accused

(4) U.S. Constitution 8th Amendment

Bail and Punishment

(5) U.S Constitution 14th Amendment

Equal Protection Right

8

JURISDICTION
[ ] For case from Federal Courts: 0

The jurisdiction of this case under 28 U.S.C. 1254(1)

[ X ] For cases from State Courts

The date on which the Highest State Court decided my case April 16, 2020. A copy of that decision
appears at Appendix [ YES ]

[ X ] A timely petition for rehearing was thereafter denied Rehearing appears at Appendix [ YES ]

THE JURISDICTION OF THIS COURT IS INVOKED UNDER 28 U.S.C 81257(A)

9

FACTS OF THE CASE
(1) The defendant Kenneth Manhard was arrested April 16, 2016 I. E. placed in full handcuffs and
placed in and in FHP patrol care 5.30 April 17, 2016) By FHP Troopers at 5:30 A.M. After he drove a
damaged Hyundai Accent small sedan dark factory tint window up to a gas station. Pump Island on
Panama City Beach, Florida.
(2) The Defendant was arrested for the troopers belief he had been the driver that hit and run after
striking a scooter and Mr. Jones the victim. With no eyewitnesses that saw Mr. Manhard Hyundai
Accent, hit the victim or scooter! (Corporal Mathers in deposition page 7-16Q thru page ll-A-13,
he knew of the Tahoe 2 small sedan and a black car when he left crash scene. As many as 5 to 6
cars could hit the victim. In this multiple crash scene accident.) (All of this Info was left out of the
Affidavit for the warrant) Corporal Mathers lead investigator got on scene 5:10 A.M. 1 hour 10
min after the crash.
(3) Defendant Kenneth Manhard made no admissions to the Troopers at the gas station and was never
identified by anyone (at any location as driver or car that struck scooter and victim. Before the
Defendant was summarily arrested, he was arrested for having glass on his shirt and the smell or odor
of alcohol coming from him. The arrest complaint reflects he was arrested by the lead investigator
Corporal Mather's of FHP. The only statement the Defendant made (after his plenary arrest
without probable cause) (were that he had not been the driver to hit and kill the scooter's
operator. But that his vehicle, and been hit by a scooter, that was thrown at his car! Then
Corporal Mather's arrested him.
(4) The Defendant's statement are not inconsistent with another vehicle having hit the victim and the
scooter, throwing the scooter into the Defendant's car on dark black out bridge they are also not
inconsistent with the Defendant having been other than the first vehicle to hit the scooter and it
operator, in this daisy chain of vehicle's to hit the scooter.
10

(5) The trooper Corporal Mathers later confirmed in deposition page 48 A1 to page 50 A25) that
they forgot the password so as to access the necessary template forms on the laptop for warrant
for the blood. Filing (For Blood 59815779 E-08/01/2017) and the state response file for blood
59840066/8/02/2017 the Defendant's motion is uncontested. Also he pulled the warrant's out of trunk of
his car to search the Defendant vehicle how did the judge sign the warrant, also the warrant 16-242 is
from old case 2015. But Judge sign it! It was application and affidavit for search warrant. Docs not
meet the 4 comer's, also the warrant for scooter was warrant 16-254 was returned April 19-2016 two
days before the same judge sign it on April 21, 2016 this is just reckless police work with boiler maker
of allegation of facts. The warrant 16-242 was sign 6 month prior to the Incident at hand 2015 Case
October 14, 2015. The warrant 16-242 was and is insufficient on it's face and no probable cause in the
affidavit. All of this violated my 4th Amendment Constitutional right to unreasonable searches and
seizures).
(6) The Troopers in the area of the gas station to first see the Defendant and been investigating two hit
and run fatality that night near the Bridges Hathaway Bridge speed limit 50 mph at approximately 4
A.M. The victim a black male (Jerry Jones Jr.) had been riding 49cc Tao 1 scooter on road higher
then/post 35 mph speed limit (electric blue) that scooter top speed/ east bound in the center lane of the
East bound span of the bridge when he was struck from behind! He was not wearing a helmet and
lights on the bridge were off at time of the collision nor is it possible to know if light were on the
scooter-were turn on at time first or any multiple impacts.
(7) Dr. Racke the medical examiner, would later testify in deposition that he cannot associate which
impact caused the injuries to the driver of the scooter or which injuries were the Life Ending injuries.
(8) According to the FHP and the various civilians who came upon Jones body and his scooter on the
Bridge, no one was ever identified who was an eyewitness to the first vehicle that actually struck the
scooter and its operator Jones.
11

(9) Blood trails, debris field and scape marks on the pavement as well as 3 eyewitness testimony,
indicated that FHP and Corporal Mather's knew the evidence at night. That body of Jones had been
hit and the scooter minimum of 5 to 6 times according to a couple that pulled over when they first
saw Jones (Alive) body lying in the road (Debra Groves and Mather Shavers) these two were
eyewitness. Later in deposition Debra Groves said she saw white or silver Tahoe hit the body and the
body went airborne. Depo page 1-3). She also said in Depo page (1-13 Groves) two small sedan hit the
body and black Nissan Altima hit the body and scooter she told that to first officer on the scene.
(Devesh. Gadia) Bay County Police next Bay County Police Sergeant (Shawn Magaudog) all of this
Info Shawn Magaudog gave all notes to FHP lead Det. for the FHP Corporal Mather (Depo. lp-50p.)
this Info was all missing from the warrant 16-242 from affidavit to get the warrant 16-242. No officer
witnessed Mr. Manhard behind the wheel of the car that night. Also no bolo was put out for any
vehicle that night. A phone call came from Gold Nugget was for a white Tahoe with broke windshield
who heard call come over radio officer (Devesh Gadia) in dep (lp. - 9p.) all of this violated my 5th
Amendment right to Due Process of Law and my 6th Amendment Constitutional right of the
accused. Also in deposition page 20/ FHP Officer Lucas Tavares 16a thru page 20 A22 I just
remember a bird in the vehicle and that what caused the damage!
(10) It was not found this info to the Defendant attorney. Mr. F.H. Mann until he took the deposition
almost 9 months later.
(11) According to Mr. Scott Walter expert accident reconstructionist for defense “Corporal Mather's
first area of collision on the (FHP Report shows one car) his reconstructionist diagram would be more
consistent with a second or third area of a collision Walter Report at page (4) Also in the report body
could been hit as many as 5-6 vehicles-to hit Mr. Jones before he died!
(12) The FHP extrapoleld from the scene that the body of the victim had been hit twice more after an
initial strike based simply on blood pools on the bridge and a superimposed trajectory lining them up
12

1

from an assumed initial impact point (where there was neither blood nor paint, nor DNA of the
victim's).
(13) The state did not list its “jail house information” witness Waldrup, until 10-25-2016 over 6
months after the Defendant's arrest, obviously the prosecution recognized the weakness in the
case then they decided to add this witness who claims Mr. Manhard told him all, to avoid what
would otherwise be a case dismissible as entirely circumstantial in nautre, and “not inconsistent
with a-reasonable hypothesis of innocence” under Florida circumstantial evidence test!
(14) No eyewitness saw the Defendant hit the victim and the scooter the Defendant has made no
admissions: No “road side” test were done of he Defendant for impairment, no BAL testing was done
in this case the Defendant was first arrested 5:30 A.M. But not given Miranda warnings until 6:25 A.M.
Almost one hour without probable cause at the gas station, no warrants for Blood or the car to search as
required by Law, the Defendant never consented to the extraction of his blood at least 4 vehicles hit the
victim, and as many as (6) may/have. Based on the Debris Field and the nature of damage to the
scooter and supposed “initial impact point selected by the FHP, Corporal Mather's was never found to
be expert in field of accident at time of the crash also no college. No paint matched no glass matched
and only a small spot of blood at top of Defendant's car to matched the warrant dated from 2015
Case October 14 6 prior to j

at hand

Judge Timothy Campbell by Troopers Mathers.

Also it&important and reckless that next warrant to get the scooter anothor reckless ^jpTsign by 44^
same judge Timothy Campbell and by Troopers Mather was sign April 21, 2016. But return two
days prior to the application for issuance of the search warrant, “no nexus reckless and boiler
maker of false facts on the affidavit on warrant No.: 16-242 and warrant 16-245.
(16) When the Defendant was first arrested and charged by the FHP, he was charged with two counts of
D.U.I one count for D.U.I manslaughter (A 300,000 bond set) and one count for D.U.I failure to render
aid (150,000 bond set) He was also charged with the F-3 of DWSLR at time of death or serious
13

)

personal injury (25,000 bound set)
(17) The state ultimately charged the Defendant in a 3 count Information with leave scene of crash with
death (added by the state attorney per Information) D.U.I manslaughter (as alleged in the complaint)
and DWLSR causing serious bodily injury or death. (Thus the bond's actually in effect at present
total (325,000) with no bail amount ever having been set for count 1# as added by the state.
This violated my 8th Amendment constitutional right to Bail and punishment.
REASON FOR GRANTEVG THE PETITION
Applicable to this appeal we have appellate jurisdiction to review a state court judgment where
is drawn in question the validity of a statute of any state on the ground of its being repugnant to the
constitution treaties or law of the United States and the decision is in favor of its validity. It is sufficient
that the validity of the statue be challenged and sustained as applied to a particular set of facts!
Mississippi v. Oilfield, 104 L. Ed. 2d 490 U.S. 30 (footnotes) (1931-1934) Wxyz Inc. v. Hand, 658 F. 2d
4207 Media L Rep (BNA) 1817 6th Cir. 1981 and Cohens v. Virginia, 5 L. Ed. 257 (6 Wheat 264)
Invoked under 28 U.S.C, § 1257(A).
CONCLUSION
Based on the fact's and argument of citation of authority Petitioner request that this Court.
Exercise its discretion to* acbdpt jurisdicfidh of this case is ripe for the picking, and (1) order full
briefing of the record on merits (2) Count 1# of the Defendant conviction should' be vacated and
reversed and should be remanded for discharge on Count 1#
CONCLUSION
The petition for a writ of certiorari should be granted.

icf HDate

:nheth Lee Manhard

14

